HHS/OIG-Audit-"Audit of Graduate Medical Education Costs at the University of North Carolina Hospitals, Chapel Hill, North Carolina,"(A-04-01-01012)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Graduate Medical Education Costs at the University of North Carolina Hospitals, Chapel Hill, North Carolina," (A-04-01-01012)
June 5, 2002
Complete
Text of Report is available in PDF format (591 Kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report shows that the Hospitals counts of intern and resident full-time equivalents were materially
correct and the Hospitals controls over the accumulation and computation of the full time employees appeared to be adequate.
Therefore, this report contains no recommendations for the hospital to address.